 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


 BAPTIST MEDICAL CENTER SOUTH
 COMPLIED WITH MOST MEDICARE
   REQUIREMENTS FOR BILLING
   INPATIENT AND OUTPATIENT
SERVICES FOR CALENDAR YEARS 2009
            AND 2010



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Brian P. Ritchie
                                                Assistant Inspector General

                                                         June 2013
                                                       A-04-12-00083
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Baptist Medical Center South (the Hospital) is a 454-bed, faith-based, not-for-profit medical
center located in Montgomery, Alabama. Medicare paid the Hospital approximately
$140 million for 13,772 inpatient and 49,539 outpatient claims for services provided to
beneficiaries during calendar years (CYs) 2009 and 2010 based on CMS’s National Claims
History data.

Our audit covered $19,605,843 in Medicare payments to the Hospital for 2,536 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 222 claims with
payments totaling $2,995,571 for review. These 222 claims had dates of service in CYs 2009
and 2010 and consisted of 163 inpatient claims and 59 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 179 of the 222 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 43 claims resulting in net overpayments totaling
$242,514. Specifically, 33 inpatient claims had billing errors resulting in net overpayments
totaling $115,089, and 10 outpatient claims had billing errors resulting in overpayments totaling
$127,425.

These overpayments occurred primarily because the technical requirements of coding and
complicated medical record interpretations resulted in coding errors, and the Hospital did not
have adequate controls in place to ensure full compliance with Medicare requirements within the
selected risk areas that contained errors.

Based on our stratified random sample results, we estimated that the Hospital received
overpayments totaling at least $1,784,982 for CYs 2009 and 2010.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $1,784,982 in estimated overpayments for CY 2009 and
       2010 claims that it incorrectly billed and

   •   strengthen controls to ensure full compliance with Medicare requirements.

BAPTIST MEDICAL CENTER SOUTH COMMENTS

In written comments on our draft report, the Hospital did not agree entirely with our first
recommendation. It agreed that it did not fully comply with Medicare billing requirements for
43 of the 222 sampled inpatient and outpatient claims with net overpayments totaling $242,514
and stated that it is processing the necessary adjustments through its Medicare Administrative
Contractor. However, the Hospital disagreed with our extrapolating the sample results to the
sampling frame and recommending a refund of $1,784,982 in estimated overpayments for CYs
2009 and 2010. The Hospital stated that extrapolation was not in concert with conversations that
occurred with onsite auditors and lacked notice and due process and that OIG had not, to date,
used extrapolation in previously published compliance reviews. In regard to our second
recommendation, the Hospital discussed steps it had taken or planned to take to strengthen its
internal controls to ensure compliance with Medicare billing requirements.

OFFICE OF INSPECTOR GENERAL RESPONSE

During the course of the audit, we discussed with a Hospital official our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental

                                                 ii
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and nonstatistical methods for selecting our samples.

We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
used successfully to identify overpayments. Therefore, we continue to recommend that the
Hospital refund to the Medicare program $1,784,982 in estimated overpayments for the audit
period.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ...........................................................................................................        1
              Hospital Inpatient Prospective Payment System ...............................................                             1
              Hospital Outpatient Prospective Payment System .............................................                              1
              Hospital Claims at Risk for Incorrect Billing ....................................................                        1
              Medicare Requirements for Hospital Claims and Payments .............................                                      2
              Baptist Medical Center South ............................................................................                 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                   3
               Objective ............................................................................................................   3
               Scope ................................................................................................................   3
               Methodology ......................................................................................................       3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ............................                                                  5
                Incorrectly Billed as Inpatient ............................................................................            5
                Incorrect Diagnosis-Related Groups ..................................................................                   5
                Incorrect Reporting of Medical Device Credits .................................................                         5

          BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ........................ 6
                Incorrect Reporting of Medical Device Credits ................................................. 7

          OVERALL ESTIMATE OF OVERPAYMENTS......................................................... 7

          RECOMMENDATIONS ............................................................................................... 7

          BAPTIST MEDICAL CENTER SOUTH COMMENTS.............................................. 8

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: RESULTS OF REVIEW BY RISK AREA

          D: BAPTIST MEDICAL CENTER SOUTH COMMENTS



                                                                    iv
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. Examples of the types of claims at risk for noncompliance included:

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
    •   inpatient short stays,

    •   inpatient claims paid in excess of charges,

    •   outpatient claims with payments greater than $25,000,

    •   inpatient claims billed with high-severity-level DRG codes, and

    •   inpatient and outpatient manufacturer credits for replaced medical devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Baptist Medical Center South

Baptist Medical Center South (the Hospital) is a 454-bed, faith-based, not-for-profit medical
center located in Montgomery, Alabama. Medicare paid the Hospital approximately
$140 million for 13,772 inpatient and 49,539 outpatient claims for services provided to
beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National Claims
History data.




                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.

Scope

Our audit covered $19,605,843 in Medicare payments to the Hospital for 2,536 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 222 claims with
payments totaling $2,995,571 for review. These 222 claims had dates of service in CYs 2009
and 2010 and consisted of 163 inpatient claims and 59 outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and did not include a
focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from July to November 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
        Claims History file for CYs 2009 and 2010;

   •    obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2009 and 2010;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    selected a stratified random sample of 222 claims (163 inpatient and 59 outpatient)
        totaling $2,995,571 for detailed review (Appendix A);

                                                 3
   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning DRG, HCPCS, and admission status
       codes for Medicare claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments;

   •   used the results of the sample review to calculate the estimated Medicare overpayment to
       the Hospital (Appendix B); and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 179 of the 222 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 43 claims resulting in net overpayments totaling
$242,514. Specifically, 33 inpatient claims had billing errors resulting in net overpayments
totaling $115,089, and 10 outpatient claims had billing errors resulting in overpayments totaling
$127,425.

These overpayments occurred primarily because the technical requirements of coding and
complicated medical record interpretations resulted in coding errors, and the Hospital did not
have adequate controls in place to ensure full compliance with Medicare requirements within the
selected risk areas that contained errors.

Based on our stratified random sample results, we estimated that the Hospital received
overpayments totaling at least $1,784,982 for CYs 2009 and 2010. See Appendix A for details


                                                4
on our sample design and methodology and Appendix B for details on our sample results and
estimates.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 33 of 163 inpatient claims that we reviewed. These
errors resulted in net overpayments totaling $115,089.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 15 of 163 inpatient claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital indicated that these errors occurred because the technical requirements of coding and
complicated medical record interpretations resulted in coding errors. As a result, the Hospital
received overpayments totaling $102,263. 3

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately….”

For 14 of 163 inpatient claims, the Hospital submitted claims to Medicare with incorrect DRG
codes. Two of these incorrectly coded claims resulted in underpayments. The Hospital indicated
that these errors occurred because the technical requirements of coding and complicated medical
record interpretations resulted in coding errors. As a result, the Hospital received net
overpayments totaling $6,892.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 412.89) require a reduction in the IPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of a device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8,
states that to correctly bill for a replacement device that was provided with a credit, the hospital


3
  The Hospital may be able to bill Medicare Part B for some services related to some of these incorrect Medicare
Part A claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor prior to
the issuance of our report.

                                                         5
must code its Medicare claims with a combination of condition code 49 or 50, along with value
code “FD.”

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services....” The CMS Provider Reimbursement Manual (PRM), part 1,
section 2102.1, states:

        Implicit in the intention that actual costs be paid to the extent they are reasonable
        is the expectation that the provider seeks to minimize its costs and that its actual
        costs do not exceed what a prudent and cost conscious buyer pays for a given item
        or service. If costs are determined to exceed the level that such buyers incur, in
        the absence of clear evidence that the higher costs were unavoidable, the excess
        costs are not reimbursable under the program.

Section 2103.A of the PRM further defines prudent buyer principles and states that Medicare
providers are expected to pursue free replacements or reduced charges under warranties for
medical devices. Section 2103.C.4 provides the following example:

        Provider B purchases cardiac pacemakers or their components for use in replacing
        malfunctioning or obsolete equipment, without asking the supplier/manufacturer
        for full or partial credits available under the terms of the warranty covering the
        replaced equipment. The credits or payments that could have been obtained must
        be reflected as a reduction of the cost of the equipment.

For 4 of 163 inpatient claims, the Hospital either received a reportable medical device credit
from a manufacturer for a malfunctioning device but did not adjust its inpatient claim with the
proper condition and value codes to reduce payment as required (1 error) or did not obtain a
credit for a replaced device that was available under the terms of the manufacturer’s warranty
(3 errors). Three of these claims also contained DRG errors. 4 The Hospital stated that these
errors occurred because it did not have a formal process in place to ensure that it requested,
received, and reported all available credits. As a result, the Hospital received net overpayments
totaling $5,934. The Hospital implemented new procedures during our review to ensure that it
properly requests and reports manufacturer credits.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 10 of 59 outpatient claims that we reviewed. These
errors resulted in overpayments totaling $127,425.




4
 For sampled claims that contained more than one type of error, the total claim overpayment was used for error
estimation. We did not estimate errors on the same claim twice.


                                                        6
Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

Medicare providers are expected to pursue free replacement or reduced charges for replaced
medical devices under warranty. 5

For 10 of 59 outpatient claims, the Hospital either received full credit for replaced devices but
did not report the “FB” modifier and reduced charges on its claims (3 errors) or did not obtain a
credit for a replaced device that was available under the terms of the manufacturer’s warranty
(7 errors). The Hospital stated that these errors occurred because it did not have a formal process
in place to ensure that it requested, received, and reported all available credits. As a result, the
hospital received overpayments totaling $127,425. The Hospital implemented new procedures
for ensuring the proper requesting and reporting of manufacturers’ credits during our review.

OVERALL ESTIMATE OF OVERPAYMENTS

Based on our stratified random sample results, we estimated that the Hospital received
overpayments totaling at least $1,784,982 for CYs 2009 and 2010. See Appendix A for details
on our sample design and methodology and Appendix B for details on our sample results and
estimates.

RECOMMENDATIONS

We recommend that the Hospital:

      •    refund to the Medicare program $1,784,982 in estimated overpayments for CY 2009 and
           2010 claims that it incorrectly billed and

      •    strengthen controls to ensure full compliance with Medicare requirements.

5
    42 CFR § 413.9 and the PRM, part 1, sections 2102.1, 2103.A, and 2103.C.4.


                                                         7
BAPTIST MEDICAL CENTER SOUTH COMMENTS

In written comments on our draft report, the Hospital did not agree entirely with our first
recommendation. It agreed that it did not fully comply with Medicare billing requirements for
43 of the 222 sampled inpatient and outpatient claims with net overpayments totaling $242,514
and stated that it is processing the necessary adjustments through its Medicare Administrative
Contractor. However, the Hospital disagreed with our extrapolating the sample results to the
sampling frame and recommending a refund of $1,784,982 in estimated overpayments for CYs
2009 and 2010. The Hospital stated that extrapolation was not in concert with conversations that
occurred with onsite auditors and lacked notice and due process and that OIG had not, to date,
used extrapolation in previously published compliance reviews. In regard to our second
recommendation, the Hospital discussed steps it had taken or planned to take to strengthen its
internal controls to ensure compliance with Medicare billing requirements. The Hospital’s
comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

During the course of the audit, we discussed with a Hospital official our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and nonstatistical methods for selecting our samples.

We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
used successfully to identify overpayments. Therefore, we continue to recommend that the
Hospital refund to the Medicare program $1,784,982 in estimated overpayments for the audit
period.




                                                 8
APPENDIXES
                                                                                       Page 1 of 3


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population is inpatient and outpatient claims paid to the Hospital for services provided to
Medicare beneficiaries during CYs 2009 and 2010.

SAMPLING FRAME

According to CMS’s National Claims History (NCH) data, Medicare paid the Hospital
$139,892,596 for 13,772 inpatient and 49,539 outpatient claims for services provided to
beneficiaries during CYs 2009 and 2010.

We downloaded a database of claims from the NCH data totaling $78,611,199 for 6,617
inpatient and 17,187 outpatient claims in 30 high-risk categories.

From this initial sampling frame we selected claims from 5 high-risk categories consisting of
6,026 claims totaling $61,307,775 for further refinement.

We then removed the following:

   •   all $0 paid claims,

   •   all claims under review by the Recovery Audit Contractor, and

   •   all duplicate claims within individual high-risk categories.

We assigned each claim that appeared in multiple high-risk categories to just one category based
the following hierarchy: Inpatient and Outpatient Manufacturer Credits for Replaced Medical
Devices, Inpatient Short Stays, and Inpatient Claims Paid in Excess of Charges. The resulting
database contained 2,536 unique Medicare claims in 5 high-risk categories totaling $19,605,843,
from which we drew our sample.
                                                                                   Page 2 of 3



                              Medicare High-Risk Areas Sampled

                                                       Number of           Amount of
   Medicare High-Risk Area                              Claims             Payments

   1. Inpatient Short Stays                                    2,037          $13,793,351

   2. Inpatient Claims Paid in Excess of Charges                  60               853,665
   3. Outpatient Claims With Payments Greater
   Than $25,000                                                   30               853,893
   4. Inpatient Claims Billed With High-Severity-
   Level DRG Codes                                               357             3,167,728
   5. Inpatient and Outpatient Manufacturer
   Credits for Replaced Medical Devices                           52               937,206

       Total                                                   2,536          $19,605,843


SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into five strata based on the
Medicare risk category.

SAMPLE SIZE

We selected 222 claims as follows:
                                                                                       Page 3 of 3


                                 Sampled Claims by Stratum

      Stratum                   Medicare High-Risk Area                      Sample Size

         1         Inpatient Short Stays                                          60

         2         Inpatient Claims Paid in Excess of Charges                     30

         3         Outpatient Claims With Payments Greater Than                   30
                   $25,000
         4         Inpatient Claims Billed With High-Severity-Level               50
                   DRG Codes
         5         Inpatient and Outpatient Manufacturer Credits for              52
                   Replaced Medical Devices

                                  Total Sampled Claims                           222

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata 1, 2, and 4. After generating the random
numbers for these strata, we selected the corresponding frame items. We selected all claims in
strata 3 and 5.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of improper Medicare
payments in our sampling frame for the Hospital for CYs 2009 and 2010.
                      APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                                                                                Number of
                   Frame                                          Total         Incorrectly    Value of
                    Size          Value of         Sample        Value of          Billed    Overpayments
     Stratum      (Claims)         Frame            Size         Sample          Claims in    in Sample
                                                                                  Sample
    Stratum 1         2,037 $13,793,351                   60   $327,778                   17      $86,842
    Stratum 2            60     853,665                   30    438,234                    5       26,769
    Stratum 3            30     853,893                   30    853,893                    0            0
    Stratum 4           357   3,167,728                   50    438,460                    5       13,138
    Stratum 5            52     937,206                   52    937,206                   16      115,765
       Total          2,536 $19,605,843                  222 $2,995,571                   43     $242,514

ESTIMATES

                      Estimated Value of Overpayments for CY 2009 and 2010
                        Limits Calculated for a 90-Percent Confidence Interval

                                    Point Estimate                  $3,064,066
                                    Lower limit                     1,784,982 1
                                    Upper limit                      4,383,056




1
  In accordance with OAS policy, we did not use the results from strata 2 and 4 in calculating the estimated
overpayments. Instead, we added the actual overpayments from strata 2 and 4 ($39,907) to the lower limit
($1,745,075), which resulted in an adjusted lower limit of $1,784,982.
                           APPENDIX C: RESULTS OF REVIEW BY RISK AREA


                                                                                                    Claims
                                                                                                     With
                                                                                 Value of           Under /        Value of Net
                                                              Selected           Selected            Over-            Over-
                    Risk Area                                 Claims             Claims            payments         payments
Inpatient

Short Stays                                                      60                  $327,778           17                   $86,842

Claims Paid in Excess of Charges                                 30                   438,234           5                     26,769
Claims Billed With High-Severity-Level
                                                                 50                   438,460           5                     13,138
Diagnosis-Related Group Codes
Manufacturer Credits for Replaced Medical
                                                                 23                   451,992           6                (11,660)
Devices
 Inpatient Totals                                                163               $1,656,464           33              $115,089



Outpatient
Manufacturer Credits for Replaced Medical
                                                                 29                  $485,214           10              $127,425
Devices
Claims With Payments Greater Than $25,000                        30                   853,893            0                        0

 Outpatient Totals                                               59                $1,339,107           10              $127,425



 Inpatient and Outpatient Totals                                 222               $2,995,571           43              $242,514

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
       outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at Baptist Medical Center South. Because we have organized the information differently, the
       information in the individual risk areas in this table does not match precisely with this report’s findings.
                                                                                                   Page 1 of3


APPENDIX D: BAPTIST MEDICAL CENTER SOUTH COMMENTS 




                                                                      JI~ Baptist
                                                                        .---HEALTH

                                                                      301 Brown Springs Road
                                                                      Montgomery, AL 36117
                                                                      334.273,4442
 April26, 2013


 Department of Health artd Humart Services
 Office of Audit Services, Region IV
 61 Forsyth Street, SW, Suite 3T41
 Atlartta, GA 30303
 ATTN: Ms. Lori S. Pilcher
 Regional Inspector General for Audit Services


 Dear Ms. Pilcher:

 Baptist Medical Center South ("BMCS" or "Hospital") appreciates the opportunity to
 comment on the U.S. Department of Health artd Humart Services, Office of the Inspector
 General ("OIG") draft report entitled, BaptistAfedical Center South Complied w ith Afost
 Medicare Requirements for Billing Inpatient and Outpatient Services for Calendar Years
 2009-2010. BMCS is committed to complying with all regulations artd startdards governing
 Federal health care programs, improving internal controls artd proactively auditing artd
 monitoring to minimize the risk oferrors.

 BMCS's responses to the OIG' s specific findings artd recommendations are set forth below.
 Unless otherwise stated, BMCS accepts the OIG's findings artd is processing the necessary
 adjustments through its Medicare Administrative Contractor.

 Inpatient Short Stays

 OIG Finding:
 For 15 of 163 inpatient claims, the Hospital incorrectly billed Medicare Part A for beneficiary
 stays that should have been billed as outpatient or outpatient with observation services. As a
 result, the Hospital received overpayments totaling $102,263.

 Hospital Comments:
 BMCS has continued to sh·engthen its controls in this area through education artd utilization
 of a collaborative approach of physiciarts, case mmagers artd secondary physiciart advisors to
 review cases in selection of the appropriate level of care artd inpatient determination. BMCS
 artd the Compliartce Department will continue to provide education artd monitor artd audit
 inpatient short stay admissions artd remediate identified errors.
                                                                                                    Page 2 of3




Inpatient Claims Billed w ith High-Severity- Level DRG Codes

O!G F inding :
For 14 of 163 inpatient claims, the Hospital submitted claims to Medicare with incorrect DRG
codes. Two ofthese incon·ectly coded claims resulted in underpayments. As a result, the
Hospital received net overpayments totaling $6,892.

Hospital Comments:
BMCS h as adequate policies and coding controls in place and will continue to provide codiJlg
education and monitoring in addition t.o the expansion of its clinical documentation
improvement program. Additionally, this category is listed for focused review by the
Compliance depa11ment as part of continued process improvement.

Inpatient and Outpatient Manufacturer Credits for Replaced Medical Devices

OJG Findings:
For 4 of 163 inpati ent claims, the Hospital either received a reportable medical device credit
from a manufacturer for a malfhnctioning device but did not adjust its inpatient claim w ith the
proper condition and value codes to reduce paym ent as required (1 enw) or did not obtain a
credit fo r a replaced device that was available under the tenns ofthe manu facturer ' s warranty
(3 errors). Three of these claims also contained DRG etTors. As a result, the Hospital
received net overpayments totaling $5,934.

For 10 out of 59 outpatient claims, the Hospital either received full credit for replaced devices
but did not report th e "FB" modifi er and reduced charges on its claims (3 errors) or did not
obtain a credit for a replaced device that was available under lhe tenns ofthe manufac turer 's
wan·anty (7 errors). As a result, the hospital received overpayments totaling $ 127, 425.

Hospital Comments:
As idenliJ1ed in the OIG's report, BM CS has implemented controls and established an
operational process for identification, class ification and application of appropriate inpatient
and outpatient manufacturer credits on medical dev ices. Additionally, education has been
provided and the Cardiac Catherizati on Laboratory and Compliance department will continue
to monitor and audit the process.

BMCS would like to respeclf1tlly note that the OIG's selection of extrapolation for this
compliauce review was not in concert with conversations that occun·ed with onsite auditors
and lacked notice and due process. Additionally, the OIG has not, to date, utilized
extrapolation as part ofils audit methodology in previously published complian ce reviews,
including those for which error rates and overpayment amounts in each rev iewed category
were the sam e or higher thru1 the BM CS findings.
                                                                                                  Page 3 of3




Despite the above chosen methodology, BMCS takes seriously its obligations to appropriately
interpret and bill services and appreciates the opportunity to leam fi·om items highlighte-d in
the review and will continue to use the outcomes for [Luther process improvement.


Sincerely,

/Rebekah M. Stewart/

Rebekah M. Stewart, JD, MBA, CHC, CPC
Chief Corporate Compliance Officer
Baptist Health


cc: Karen McCaa, Vice President, Cardiac & Surgical Services, Baptist Medical Center South
    B. Blaine Brown III, Senior Vice President and General Counsel, Baptist Health 

    Anthony A.. Joseph, Outside Counsel, Maynard Cooper & Gale, PC 

